   DEPARTMENT OF HEALTH & HUMAN SERVICES	                                      Office of Inspector General


                                                                               Region IX
    OCT - 8 2008,	                                                             Office of Audit Services
                                                                                      h
                                                                               90 - i Street, Suite 3-650
                                                                               San Francisco, CA 94103


Report Number: A-09-08-00026

Mr. Charles Duarte
Administrator
Nevada Department of Health and Human Services
Division of Health Care Financing and Policy
1100 East Williams Street, Suite 101
Carson City, Nevada 89701

Dear Mr. Duarte:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Follow-Up Audit of the Medicaid Drug Rebate Program in
Nevada." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, DIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(415) 437-8360 or through e-mail at Lori.Ahlstrand@oig.hhs.gov, or contact Doug Preussler,
Audit Manager, at (415) 437-8309 or through e-mail at Doug.Preussler@oig.hhs.gov. Please
refer to report number A-09-08-00026 in all correspondence.

                                             Sincerely,

                                     f~~.
                                    { / ~ri A. Ahlstrand
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 - Mr. Charles Duarte


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





   FOLLOW- UP AUDIT OF THE

    MEDICAID DRUG REBATE

     PROGRAM IN NEVADA





                    Daniel R. Levinson

                     Inspector General


                      October 2008

                      A-09-08-00026

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OlG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (Ol) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, Ol utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OlG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OlG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 BACKGROUND

 The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
 Social Security Act (the Act). For a manufacturer's covered outpatient drugs to be eligible for
 Federal Medicaid funding under the program, the manufacturer must enter into a rebate
 agreement with the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates
 to the States. eMS, the States, and drug manufacturers each undertake certain functions in
 connection with the drug rebate program. In Nevada, the Department of Health and Human
 Services (the State agency) administers the Medicaid drug rebate program.

 Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
 by National Drug Code (NDC), the number of units of each covered outpatient drug for which
 the States reimbursed providers. The number of units is applied to the unit rebate amount to
 determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) ofthe Act
 requires States to provide the drug utilization data to CMS and the manufacturer. States also
 report drug rebate accounts receivable data on Form CMS-64.9R, "Medicaid Drug Rebate
 Schedule."

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls over their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all of the drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly monitor the drug rebate
program.

  In our previous audit of the Nevada drug rebate program, we determined that the State agency

  had not established adequate policies, procedures, and internal controls over the Medicaid drug

. rebate program (A-09-03-00033). Specifically, we identified weaknesses in the following areas:

  (1) accounts receivable system, (2) rebate billings, (3) interest accrual and collection, and
  (4) dispute resolution. We recommended that the State agency establish policies, procedures,

  and internal controls to:


    •	 create a general ledger accounts receivable control account and a sufficiently detailed
       subsidiary accounts receivable system to track drug rebate activity;

    •	 ensure that manufacturers are billed timely and accurately, and adjust billing units for
       inaccurately billed injectable medications;

    •	 account for interest due and verify the accuracy of interest payments received; and

    •	 actively work to resolve manufacturer disputes, review inactive accounts periodically and
       write off accounts that are no longer collectible, as allowed by CMS thresholds, and when
       appropriate, use the State hearing mechanism to resolve longstanding disputes.


                                                  1
The State agency concurred with our findings and recommendations.

This current review of Nevada is part of a nationwide series of reviews conducted to determine
whether States have addressed the weaknesses in accountability for and internal controls over
their drug rebate programs found in the previous reviews. Additionally, because the Deficit
Reduction Act of 2005 required States as of January 2006 to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Nevada drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

Regarding the first objective, the State agency implemented the recommendations from our prior
audit that related to rebate billings and dispute resolution. The State agency partly implemented
the recommendations related to the accounts receivable system and interest accrual and
collection.

   •	 Accounts Receivable System. Although the State agency did not create a general ledger
      accounts receivable control account, it notified upper management of the drug rebate
      receivable balance by providing a report to the State Controller's office at the end of each
      fiscal year. However, the State agency did not create a sufficiently detailed subsidiary
      accounts receivable system to track drug rebate activity before 2003 by NDC. As a
      result, the State agency cannot actively work to resolve any remaining pre-2003 drug
      rebate balances.

   •	 Interest Accrual and Collection. The State agency accounted for interest due on
      disputed, late, and unpaid rebate payments. However, it did not verify the accuracy of
      interest payments received. As a result, the State agency could not assure that it collected
      all of the interest owed on disputed, late, and unpaid balances.

Regarding the second objective, the State agency established controls over collecting rebates on
single source drugs administered by physicians.

RECOMMENDATIONS

We recommend that the State agency implement policies, procedures, and internal controls to:

   •	 create a sufficiently detailed subsidiary accounts receivable system to track drug rebate
      activity by NDC for all drug rebate balances and

   •	 verify the accuracy of interest payments received.


                                                11
STATE AGENCY COMMENTS

In comments on the draft report (included as the Appendix), the State agency did not concur
fully with our findings and recommendations. Regarding the first recommendation, the State
agency commented that it was not feasible to track pre-2003 drug rebate activity by NDC
because of limitations in the accounts receivable system used for that period. The State agency
did not concur with our statement that the State agency could not actively work to resolve the
pre-2003 drug rebate balances and commented that its fiscal agency has actively pursued
collection of pre-2003 balances. For the remaining pre-2003 balances, the State agency
commented that most of them were uncollectible and that it would work with its fiscal agent to
identify the uncollectible balances so that they can be properly written off. The State agency
questioned whether attempting to implement a system to track pre-2003 drug rebate activity by
NDC was cost effective.

Regarding the second recommendation, the State agency did not fully concur with our statement
that neither the State agency nor its fiscal agent verified the accuracy of interest collected.
However, the State agency commented that its fiscal agent had developed a methodology to
manually verify the interest paid by manufacturers against the actual amount of interest due.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on the State agency's comment, we modified our statement that the State could not
actively work to resolve the pre-2003 drug rebate balances. We continue to recommend that the
State agency create a sufficiently detailed subsidiary accounts receivable system to track drug
rebate activity by NDC for all drug rebate balances, unless CMS agrees that the remaining
pre-2003 balances are uncollectible and can be written off.




                                               111
                                TABLE OF CONTENTS



INTRODUCTION                                        1


  BACKGROUND                                        1

    Drug Rebate Program                             1

    Physician-Administered Drugs                    1

    Prior Office of Inspector General Reports       2

    Nevada Drug Rebate Program                      3


  OBJECTIVES, SCOPE, AND METHODOLOGy                3

    Objectives                                      3

    Scope                                           3

    Methodology                                     4


FINDINGS AND RECOMMENDATIONS                        4


  IMPLEMENTATION OF PRIOR RECOMMENDATIONS           5

    Federal Regulations                             5

    Accounts Receivable System                      5

    Interest Accrual and Collection                 5


  PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS        6


  RECOMMENDATIONS                                   6


  STATE AGENCY COMMENTS                             6


  OFFICE OF INSPECTOR GENERAL RESPONSE              6


APPENDIX

  STATE AGENCY COMMENTS




                                           IV
                                             INTRODUCTION


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer's covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Nevada, the Department of Health and Human
Services (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) ofthe Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug's average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R, "Medicaid Drug Rebate
Schedule." This is part of Form CMS-64, "Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program," which summarizes actual Medicaid expenditures for each
quarter and is used by CMS to reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as "brand name drugs" and do not have generic equivalents.


'This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January I, 2008.


                                                        1
In Nevada, physician-administered drugs are billed to the State Medicaid program on either a
physician claim form or an outpatient hospital claim form. Before January 1, 2008,
physician-administered drugs were billed on the claim forms using procedure codes that are part
of the Healthcare Common Procedure Coding System. The procedure code identifies a drug by
its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).
Therefore, to determine rebates, the procedure codes must be converted into NDCs for single
source drugs, and procedure code billing units must be converted into equivalent NDC billing
units.

Effective January 1,2008, the State agency required claim forms to include the NDCs (and NDC
billing units) for all physician-administered drugs.

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Nevada drug rebate program, we determined that the State agency
had not established adequate policies, procedures, and internal controls over the Medicaid drug
rebate program. 3 Specifically, we identified weaknesses in the following areas: (1) accounts
receivable system, (2) rebate billings, (3) interest accrual and collection, and (4) dispute
resolution. We recommended that the State agency establish policies, procedures, and internal
controls to:

    •	 create a general ledger accounts receivable control account and a sufficiently detailed
       subsidiary accounts receivable system to track drug rebate activity;4

    •	 ensure that manufacturers are billedtime1y and accurately, and adjust billing units for
       inaccurately billed injectable medications;

    •	 account for interest due and verify the accuracy of interest payments received; and



2"Multistate Review of Medicaid Drug Rebate Programs" (A-06-03-00048), issued July 6,2005; Arizona was not
included because it did not operate a drug rebate program.

3"Audit of Medicaid Drug Rebate Program in Nevada" (A-09-03-00033), issued August 15,2003.

4A sufficiently detailed system is one that tracks drug rebate activity by NDC.



                                                          2
    •	 actively work to resolve manufacturer disputes, review inactive accounts periodically and
       write off accounts that are no longer collectible, as allowed by CMS thresholds, and when
       appropriate, use the State hearing mechanism to resolve longstanding disputes.

The State agency concurred with our findings and recommendations.

Nevada Drug Rebate Program

The State agency contracted with its fiscal agent, First Health Services Corporation, to perform
all drug rebate program functions other than receiving rebate funds and quarterly reporting. The
fiscal agent's responsibilities included preparing and mailing invoices to manufacturers,
managing dispute resolution procedures, and accounting for rebates on single source drugs
administered by physicians. Before January 1, 2008, the fiscal agent also converted procedure
code billing units into equivalent NDC billing units.

The State agency reported an outstanding drug rebate balance of $4,831 ,437 on the
June 30, 2006, Form CMS-64.9R. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of approximately $32.1 million and collections of approximately
$34.7 million. s

This current review of the Nevada drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the DRA required States as of January 2006 to begin collecting rebates on single source
drugs administered by physicians, this series of reviews will also determine whether States have
complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Nevada drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency's current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.



SThe State agency originally reported rebate billings of approximately $16.6 million because it did not report rebate
billings for two of the four quarters. However, the fiscal agent's records showed rebate billings of approximately
$15.5 million for those quarters. To correct the understatement, the State agency made adjustments on the
Form CMS-64.9Rs for September 30, 2006, and December 31,2006.



                                                          3
We performed our fieldwork at the State agency in Carson City, Nevada, from January through
May 2008. We also performed fieldwork at the fiscal agent's office in Richmond, Virginia.

Methodology

To accomplish our objectives, we

   •	 reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
      State Medicaid directors, and other information pertaining to the Medicaid drug rebate
      program;

   •	 reviewed the policies and procedures related to the fiscal agent's drug rebate accounts
      receivable system;

   •	 interviewed State agency officials and fiscal agent staff to determine the policies,

      procedures, and controls that related to the Medicaid drug rebate program;


   •	 reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •	 reviewed supporting documentation for rebates invoiced, adjustments, and rebate and
      interest payments received for the quarter ended June 30, 2006;

   •	 interviewed fiscal agent staff to determine the processes used in converting physician
      services claims data into drug rebate data related to single source drugs administered by
      physicians; and

   •	 reviewed rebate listings of billings and reimbursements for procedure codes related to
      single source drugs administered by physicians for the period January 1 through
      June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency implemented the recommendations from our prior audit that related to rebate
billings and dispute resolution. The State agency partly implemented the recommendations
related to the accounts receivable system and interest accrual and collection. In addition, the
State agency established controls over collecting rebates on single source drugs administered by
physicians.




                                                4

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

The State agency partly implemented the recommendations from our prior audit that related to
the accounts receivable system and interest accrual and collection.

Federal Regulations

Pursuant to 42 CFR § 433.32(a), States are required to "[m]aintain an accounting system and
supporting fiscal records to assure that claims for Federal funds are in accord with applicable
Federal requirements."

Accounts Receivable System

In our prior audit, we determined that the State agency did not maintain a general ledger
accounts receivable control account nor maintain its subsidiary accounts receivable system at a
sufficiently detailed level to accurately account for drug rebate activity. Although the State
agency had not created a general ledger accounts receivable control account, it notified upper
management of the drug rebate receivable balance by providing a report to the State Controller's
office at the end of each fiscal year. However, as of the end of our fieldwork, the State agency
had not created a sufficiently detailed subsidiary accounts receivable system to track drug rebate
activity for drug rebate balances before 2003.

Although the subsidiary accounts receivable system tracked drug rebate activity for 2003 and
later years by NDC, it did not track the pre-2003 activity by NDC. The 2002 activity was
tracked only by quarter and year for each manufacturer. The pre-2002 activity was tracked only
by manufacturer. As a result, the State agency cannot work to resolve any remaining pre-2003
drug rebate balances.

Interest Accrual and Collection

In our prior audit, we determined that the State agency did not have adequate controls to
accurately account for interest due on disputed, late, and unpaid rebate payments nor to ensure
that interest payments received from manufacturers were accurate. Since our prior audit, the
State agency has accounted for interest due on disputed, late, and unpaid rebate payments.
However, as of the end of our fieldwork, the State agency had not implemented a procedure to
verify the accuracy of interest payments received from manufacturers.

Section(V)(b) of the rebate agreement between CMS and manufacturers requires manufacturers
to pay interest on late rebate payments, and CMS program release 29 requires interest to be
collected. 6 Neither the State agency nor its fiscal agent verified the accuracy of interest
payments received from manufacturers. The fiscal agent believed that it was the manufacturers'
responsibility to accurately calculate and pay the interest owed. However, without verification
that interest paid by manufacturers was accurate, the State agency could not assure that it

6CMS has issued guidance to State Medicaid directors pertaining to the drug rebate program and posts the program
releases on its Web site at http://www.cms.hhs.govlMedicaidDrugRebateProgram/02 StateReleases.asp. Accessed
April 22, 2008.


                                                        5
collected all of the interest owed on disputed, late, and unpaid balances. The State agency
indicated that it planned to work with its fiscal agent on the verification of interest payments
received.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. For the procedure codes on the crosswalk,
the State agency paid $1,042,893 in claims for physician-administered drugs from January
through June 2006 and billed manufacturers for rebates totaling $144,567.

RECOMMENDATIONS

We recommend that the State agency implement policies, procedures, and internal controls to:

   •	 create a sufficiently detailed subsidiary accounts receivable system to track drug rebate
      activity by NDC for all drug rebate balances and

   •	 verify the accuracy of interest payments received.

STATE AGENCY COMMENTS

In comments on the draft report (included as the Appendix), the State agency did not concur
fully with our findings and recommendations. Regarding the first recommendation, the State
agency commented that it was not feasible to track pre-2003 drug rebate activity by NDC
because of limitations in the accounts receivable system used for that period. The State agency
did not concur with our statement that the State agency could not actively work to resolve the
pre-2003 drug rebate balances and commented that its fiscal agency has actively pursued
collection ofpre-2003 balances. For the remaining pre-2003 balances, the State agency
commented that most of them were uncollectible and that it would work with its fiscal agent to
identify the uncollectible balances so that they can be properly written off. The State agency
questioned whether attempting to implement a system to track pre-2003 drug rebate activity by
NDC was cost effective.

Regarding the second recommendation, the State agency did not fully concur with our statement
that neither the State agency nor its fiscal agent verified the accuracy of interest collected.
However, the State agency commented that its fiscal agent had developed a methodology to
manually verify the interest paid by manufacturers against the actual amount of interest due.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on the State agency's comment, we modified our statement that the State could not
actively work to resolve the pre-2003 drug rebate balances. We continue to recommend that the
State agency create a sufficiently detailed subsidiary accounts receivable system to track drug
rebate activity by NDC for all drug rebate balances, unless CMS agrees that the remaining
pre-2003 balances are uncollectible and can be written off.



                                                 6
APPENDIX

                                                                                                     APPENDIX

                                                                                                      Page 1 of2





                                  STATE OF NEVADA

                      DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                                                                         MICHAEL J. WILLDEN
                  DIVISION OF HEALTH CARE FINANCING AND POLICY                                 DfreClor

                            1100 E. William Street, Suite 101
JIM GIBBONS	                   Carson City, Nevada 89701                                  CHARLES DUARTE
  Governor	                         (775) 684-3600                                           Admlnfsr,olor



  July 10, 2008

  Lori A. Ahlstrand
  Regional Inspector General for Audit Services
  Region IX Audit Services
  90 - 7th Street, Suite 3-650
  San Francisco, CA 94103

  Subject:	    Report Number A-09-08-00026

               State ofNevada Division of Health Care Financing and Policy

               Drug Rebate Audit

               State Response to Draft OIG Audit Report


  Dear Ms: Ahlstrand:

 In response to your report on the Medicaid Drug Rebate Program in Nevada, we concur with

 your findings that the state has implemented recommendations from the 2003 audit regarding

 rebate billings and dispute resolution. The Division of Health Care Financing and Policy

 (DHCFP) does not concur fully with your findings and recommendations regarding the

 accounts receivable system and interest accrual and collection.


     1.	 Recommendation 1: Create a sufficiently detailed subsidiary accounts receivable
         system to track drug rebate activity by NDC for all drug rebate balances.

        DHCFP does not accept the recommendation. In 2003 the OIG performed an audit of
        Nevada's drug rebate program and recommended that DHCFP "create a general ledger
        receivable control account and a sufficiently detailed subsidiary accounts receivable
        system to track drug rebate activity." DHCFP accepted this recommendation and
        responded that it would utilize FirstRebate on a prospective basis to track rebate activity
        by labeler, NDC code, year and quarter, batch number, and deposit date. DHCFP fully
        implemented the response to this recommendation and, since implementation, can track
        all rebate activity by NDC. The 2003 audit did not recommend that DHCFP create a
        system to account for rebate activities before 2003, nor did DHCFP agree to do this. In
        fact, it is not feasible for DHCFP to track pre-2003 rebate activity to the NDC level
        because the system used prior to FirstRebate stored at the labeler level and did not
        include NDC. When FirstRebate took over the contract, outstanding balances were
        rolled into a single quarter in the new system, but payment information was not
        transferred, so there is no way to match any remaining outstanding balances with NDC.

        In spite of this, FirstRebate has actively pursued collection of pre-2003 drug rebate
        balances. DHCFP, thus, takes issue with the statement that "the State agency could not
        actively work to resolve the pre-2003 drug rebate balances." In fact, more than $ 16
        million dollars has been collected on the pre-2003 balances since the FirstRebate
                                                                                                  APPENDIX
                                                                                                   Page 2 of2



July 10, 2008
Page 2


       program was implemented in Nevada. Of the remaining outstanding balances, both
       DHCFP and FirstRebate are of the opinion that most are uncollectible because of
       documentation and accounting issues inherent in the system previously used. DHCFP
       will be working with FirstRebate to identify the uncollectible balances so they can be
       properly written off.

   2. Recommendation 2: Verify the accuracy of interest payments received.

       DHCFP does not fully concur with the statement, "Neither the state nor its fiscal agent
       verified the accuracy of interest collected." Currently, the FirstRebate system does an
       interest calculation on the date of invoice preparation that takes the average weekly t­
       bill rate and the outstanding balance to a daily level and calculates interest owed based
       on the days late of the payment. The application allows for interest received to be
       allocated against that figure and for the interest payment to be accepted as paid in full or
       not. Since the interest c'alculated is ahead of the payment, the interest paid by the
       manufacturer usually exceeds the amount due. The system then allows for an
       adjustment to be made to account for the interest in the days since mailing. Where
       interest paid is less than calculated, the system will continue to show interest due on
       prior quarter statements until the interest is paid or adjusted. In addition, FirstRebate
       staff has developed a methodology to manually verify the interest paid against the
       actual amount due. This methodology will be used check the amount of rebate due
       against the automated calculation on drug rebate payments that include interest
       payments.

DHCFP has fully complied with the recommendations in the 2003 OIG Drug Rebates audit
report. DHCFP's response to those recommendations was implemented precisely as outlined
in the response letter dated August 1, 2003. DHCFP lacks the capacity to go beyond what
was agreed to do in 2003 and implement a system to track pre-2003 drug rebate activity by
NDC. Given the likelihood that little or no rebate monies would be collected as a result of
such an effort, DHCFP questions whether attempting to do this would be a wise use of the
State General Funds and federal matching dollars that would be invested to accomplish it.

Sincerely,




Charles Duarte, Administrator,

Division of Health Care Financing and Policy


cc:	   Michael J. Willden, Director, Department of Health and Human Services
       Elizabeth Aiello, Deputy Administrator DHCFP
       Lynn Carrigan, Chief Financial Officer DHCFP
       Doug Preussler, Audit Manager, OIG
